           Audit Report



 Supplemental Security Income
Recipients with Excess Unstated
            Income




      A-07-12-11206 | May 2014
MEMORANDUM


Date:      May 20, 2014                                                       Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Supplemental Security Income Recipients with Excess Unstated Income (A-07-12-11206)

           The attached final report presents the results of our audit. Our objective was to identify
           Supplemental Security Income recipients who may have been receiving improper benefit
           payments because of unstated income.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Supplemental Security Income Recipients with Excess
Unstated Income
A-07-12-11206
May 2014                                                                        Office of Audit Report Summary

Objective                                    Our Findings

To identify Supplemental Security Income     According to SSA policy, one situation that may point to unstated income
(SSI) recipients who may have been           is when an individual’s stated income is insufficient to provide for known
receiving improper benefit payments          living expenses. However, SSA policy does not clearly outline how an
because of unstated income.                  adjudicator should determine the sufficiency of an individual’s income.
                                             That is, there are no specific instructions about what living expense
Background                                   information should be obtained to make such a determination and
                                             therefore potentially explore unstated income. Rather, SSA policy
Because of the program’s means-based         instructs staff, “Whenever the information in file, including statements of
nature, SSI payment amounts can fluctuate    the claimant/recipient, deemor or third parties, creates questions as to how
monthly. The Social Security                 living expenses are met, explore the existence of unstated income.
Administration (SSA) relies on recipients    Adjudicators are responsible for deciding whether the information in file
to self-report changes in circumstances      creates such questions and to what extent unstated income must be
that may affect SSI eligibility and/or       explored.”
payment amounts. However, some SSI
recipients fail to report these changes to   By having a discretionary process for identifying what monthly living
retain their SSI payments. This issue has    expenses should be obtained to determine the sufficiency of an
been a cause of SSI overpayments since       individual’s income and therefore the potential for unstated income, SSA
the program’s inception.                     may be overlooking opportunities to detect improper payments. To
                                             illustrate, we analyzed individuals in our sample who reported spending
Unstated income is income that is not        the majority of their income on rent/mortgage and food alone. Based on
reported or otherwise known to SSA but is    our methodology, we identified 25 recipients who had potential unstated
determined to exist because an               income in July 2011. We updated the income and expense information
individual’s living expenses exceed          for the 25 recipients and found 21 were in current pay as of January 2014.
income from known sources. The amount        Taking into account updated income and expense information, we found
of unstated income to be charged is the      14 of the 21 recipients still had potential unstated income.
difference between stated or known
monthly income and monthly living            Our Recommendations
expenses.
                                             We recommend SSA:
According to SSA policy, when there is
information on file that creates questions   1. Use a process similar to that in our analysis to explore unstated
as to how living expenses are being met,        income for the 14 recipients who still have potential unstated income,
SSA staff is to determine whether there is      and
unstated income by comparing usual
monthly living expenses with total           2. Based on those results, determine whether the process for exploring
monthly income. However, if there is no         unstated income should be strengthened for SSI-eligible individuals
reason to suspect that unstated income          who report spending the majority of their income on rent/mortgage
exists, no further development or               and food alone.
documentation is required.
                                             SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Missed Opportunities to Identify Unstated Income ...................................................................4
     Recipients with Potential Unstated Income ...............................................................................5
           Additional Analysis and Referrals to SSA...........................................................................9
Conclusions ....................................................................................................................................10
Recommendations ..........................................................................................................................11
Agency Comments and OIG Response..........................................................................................11
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Sample Errors...................................................................................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




SSI Recipients with Excess Unstated Income (A-07-12-11206)
ABBREVIATIONS
AFI                  Access to Financial Institutions

BLS                  Bureau of Labor Statistics

FBR                  Federal Benefit Rate

MSSICS               Modernized Supplemental Security Income Claims Systems

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SNAP                 Supplemental Nutrition Assistance Program

SSI                  Supplemental Security Income

SSITWR               Supplemental Security Income Telephone Wage Reporting

SSR                  Supplemental Security Record

U.S.C.               United States Code

USDA                 U.S. Department of Agriculture




SSI Recipients with Excess Unstated Income (A-07-12-11206)
OBJECTIVE
Our objective was to identify Supplemental Security Income (SSI) recipients who may have been
receiving improper benefit payments because of unstated income.

BACKGROUND
SSI is a Federal cash assistance program administered by the Social Security Administration
(SSA) that provides a minimum level of income to financially needy individuals who are aged,
blind, or disabled. 1 For this review, we focused on individuals receiving SSI payments because
of blindness or disability. To receive SSI payments, an individual must meet certain income and
resource requirements. No individual shall be considered eligible for SSI payments for any
period during which he/she has income or resources that exceed the allowable limits established
under the Social Security Act. 2 In Fiscal Year 2011, SSA provided each eligible individual who
had no other countable income a maximum monthly Federal cash payment of $674. 3 SSA
reduces, or offsets, SSI payments by a recipient’s income, 4 less certain exclusions. 5

Because of the program’s means-based nature, SSI payment amounts can fluctuate monthly
depending on changes in income, resources, and living arrangement. SSA generally relies on
recipients to self-report changes in circumstances that may affect SSI eligibility and/or payment
amounts. Because reporting such events can cause ineligibility or a decrease in SSI payments,
some recipients do not report these types of changes to retain their SSI payments. This issue has
been a major cause of SSI overpayments since the SSI program’s inception. 6 While SSA
front-line employees detected potential fraud and made appropriate referrals to the Office of the



1
    Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
2
    Social Security Act § 1611(a); 42 U.S.C. § 1382(a). See 20 C.F.R. § 416.202.
3
  Also referred to as the Federal Benefit Rate (FBR). The maximum SSI payment increases with the annual cost-of-
living adjustments that apply to Social Security benefits. SSA, POMS, SI 02001.020 (October 16, 2012).
4
  Income is any item an individual receives in cash or in-kind that can be used to meet his or her need for food or
shelter. SSA, POMS, SI 00810.005 (March 8, 2005). There are different types of income, earned and unearned, and
SSA has rules for counting each. 20 C.F.R. § 416.1104. Unearned income includes things such as Social Security
benefits, interest, and unstated income. Earned income includes such things as wages and net earnings from self-
employment. 20 C.F.R. §§ 416.1110 and 416.1121. Note: As long as the source of unstated income is unknown, it
is categorized as unearned income. However, if the source of the unstated income is identified (for example,
wages), it would be considered either earned or unearned income as appropriate.
5
 Not all income is counted for SSI purposes. For example, SSI recipients can have $20 per month in unearned
income and $65 per month in earned income ($85 per month if no unearned income is reported) without affecting
their SSI payment. SSA also excludes up to $30 of earned income in a calendar quarter if it is infrequent or irregular
as well as any earned income that is used to pay impairment-related work expenses. SSA, POMS, SI 00810.420
(December 1, 1998); SSA, POMS, SI 00820.500 (February 23, 2009).
6
 SSA Office of Quality Performance, Fiscal Year 2011 Title XVI Payment Accuracy (Stewardship) Report,
May 2012, p. 3.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                          1
Inspector General (OIG) in the New York and Puerto Rico disability fraud schemes, we believe
additional controls could strengthen the process. 7

Unstated income is income not reported or otherwise known to SSA but determined to exist
because an individual’s (or couple’s) living expenses exceed income from known sources. The
amount of unstated income to be charged is the difference between stated or known monthly
income and monthly living expenses. The following situations could indicate an individual has
unreported income from other sources.

     Stated income is insufficient to pay costs normally associated with resources owned (for
      example, gas, maintenance, insurance, and licensing of an automobile).
     Stated income is insufficient to provide for known living expenses.
     No income is alleged, and the individual does not live in a setting in which food and shelter
      are provided.

Adjudicators are responsible for deciding whether the information on file creates such questions
and to what extent unstated income is explored. If there is no reason to suspect that unstated
income exists, no further development or documentation is required. If unstated income does
exist, the following usual monthly living expenses should be obtained.
     Rent or mortgage (including property tax)
     Food
     Clothing
     Utilities
     Miscellaneous household expenses
     Insurance
     Medical and dental care
     Automobile and other transportation expenses
     Other expenses (such as newspapers, barber, toilet articles, etc.)
     Installment loans
     Illegal drugs (if the file shows the individual uses them) 8




7
 As part of an ongoing disability fraud operation in Puerto Rico, SSA OIG made 75 arrests in August 2013, in
coordination with the Federal Bureau of Investigation and the Puerto Rico Police Department. In January 2014,
SSA OIG, in coordination with the Manhattan District Attorney’s Office and the New York City Police Department,
began arresting 106 indicted individuals for their alleged involvement in a vast, longstanding Social Security
disability fraud scheme.
8
    SSA, POMS, SI 00810.035 (July 20, 2009).



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                    2
For July 2011, we identified 128,524 blind or disabled SSI recipients from 1 segment of the
Supplemental Security Record (SSR) who (1) were receiving at least 90 percent of the full 2011
FBR—between $607 and $674; (2) were age 18 to 65; and (3) did not have an eligible spouse on
their record. We randomly selected a sample of 250 of these recipients to review to determine
whether the potential for unstated income existed (see Appendix A).

RESULTS OF REVIEW
According to SSA policy, one situation that may point to unstated income is when an individual
has stated income that is insufficient to provide for known living expenses. 9 However, SSA
policy does not clearly outline how an adjudicator should determine the sufficiency of an
individual’s income. That is, there are no specific instructions about what living expense
information should be obtained to make such a determination and therefore potentially explore
unstated income. Rather, SSA policy instructs staff, “Whenever the information in file,
including statements of the claimant/recipient, deemor or third parties, creates questions as to
how living expenses are met, explore the existence of unstated income. Adjudicators are
responsible for deciding whether the information in file creates such questions and to what extent
unstated income must be explored.” 10

Since there are no specific instructions about what living expense information should be
obtained, SSA has created a discretionary process for obtaining the monthly living expenses used
to make a determination about the exploration of unstated income. With a discretionary process
in place, some adjudicators may not be as proficient as others in identifying expenses that may
lead to the development of unstated income.

By not having a process that identifies what monthly living expenses should be obtained to
determine the sufficiency of an individual’s income and therefore the potential for unstated
income, SSA may be overlooking opportunities to detect improper payments. To illustrate, we
analyzed individuals in our sample who reported that rent/mortgage and food expenses alone
accounted for the majority of their income. We used this approach because we believe it may be
a good indicator of potential unstated income, as it leads us to question how the recipient is
paying for other normal expenses. From our sample of 250 recipients, we identified 40 who
spent approximately 80 percent or more of their income on rent/mortgage and food. When we
considered additional usual monthly living expenses identified in SSA’s policy, we found 25 of
these recipients had potential unstated income in July 2011—ranging from $41 to $1,001, with a
median amount of $93—that could have resulted in overpayments ranging from $21 to $674,
with a median of $73 (see Appendix C).




9
  The two additional situations listed in SSA’s instructions are when (1) stated income is insufficient to pay costs
normally associated with resources owned and (2) no income is alleged and the individual (or couple) does not live
in a setting in which food and shelter are provided. SSA, POMS, SI 00810.035 C.1.a (July 20, 2009).
10
     SSA, POMS, SI 00810.035 (July 20, 2009).



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                             3
We updated the income and expense information for the 25 recipients and found 21 were in
current pay as of January 2014. Taking into account updated income and expense information,
we found 14 of the 21 recipients still had potential unstated income. Based on the income and
expense information from July 2011 for these 14 recipients, we estimate there were
approximately 144,000 blind or disabled SSI recipients who spent approximately 80 percent or
more of their income on rent/mortgage and food and had potential unstated income of over
$372 million in 1 year (see Appendix B).

Missed Opportunities to Identify Unstated Income
According to SSA policy, one situation that may point to unstated income is when an
individual’s stated income is insufficient to provide for known living expenses. 11 However, SSA
policy does not clearly outline how an adjudicator should determine the sufficiency of an
individual’s income. That is, there are no specific instructions about what living expense
information should be obtained to make such a determination and therefore potentially explore
unstated income. Rather, SSA policy instructs staff, “Whenever the information in file,
including statements of the claimant/recipient, deemor or third parties, creates questions as to
how living expenses are met, explore the existence of unstated income. Adjudicators are
responsible for deciding whether the information in file creates such questions and to what extent
unstated income must be explored.”

Since there are no specific instructions about what living expense information should be
obtained, SSA has created a discretionary process for obtaining the monthly living expenses used
to make a determination about the exploration of unstated income. With a discretionary process
in place, some adjudicators may not be as proficient as others in identifying expenses that may
lead to the development of unstated income.

In our review of 250 SSI recipients, we found 193 (77 percent) who had only housing
(rent/mortgage) expense information documented in SSA’s systems. 12 SSA’s systems did not
have any other expenses documented for these recipients. Without documentation showing that
SSA looked into additional expenses, we cannot confirm whether adjudicators inquired about
any other monthly living expenses when determining whether stated income was insufficient to
provide for known living expenses. 13 The lack of documented expenses suggests that some
adjudicators may have relied solely on housing expense information to make a determination
about the sufficiency of an individual’s income and did not fully explore unstated income.



11
     Supra note 9.
12
  SSA records information about shelter costs in its Modernized Supplemental Security Income Claims Systems
(MSSICS). MSSICS is an electronic system that guides SSA employees through collecting information needed to
determine eligibility and monthly payment amounts. The 193 recipients include those whose living arrangements
showed they lived in non-institutional care or were identified as transient.
13
  If an adjudicator questions unstated income and a satisfactory explanation is provided, the explanation should be
documented in a Report of Contact (SSA-5002 or DROC screen) or other form (for example, the “Remarks” section
of the SSI application, redetermination form, MSSICS screens). SSA, POMS, SI 00810.035 C.1.c (July 20, 2009).



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                        4
By not having a process for identifying what monthly living expenses should be obtained to
determine the sufficiency of an individual’s income and therefore the potential for unstated
income, SSA may be overlooking opportunities to detect improper payments, as illustrated in the
next section of this report. In fact, in an SSA training session, Title XVI Basic Training
(November 2012), the instructors cautioned the tendency to overlook potential unstated income
and discussed personal experiences as claims representatives. One of the instructors stated,
“You’re not really thinking about it [unstated income] because you’re going through and just
asking one question after another.” She further stated, “It [unstated income] is something really
simple to overlook because you are so focused on going through that claim.”

Recipients with Potential Unstated Income
To show that SSA could identify more instances of unstated income if it strengthened its process
for developing unstated income, we analyzed a sample of 250 recipients (see Appendix A for our
detailed methodology). Specifically, for each recipient we

    identified total income—recipient’s SSI payment and any other reported income—recorded
     in SSA’s MSSICS and
    developed usual monthly living expenses—rent/mortgage, food, clothing, utilities,
     housekeeping supplies, transportation, personal care, and installment loan payments. 14

The income we used in our analysis was documented in SSA’s systems. If there was no
documentation of outside income, we did not add any estimated amounts. The expenses used in
our analysis were

    documented in SSA’s systems,
    obtained from credit reports, or
    estimated using information from the Bureau of Labor Statistics (BLS) and/or the U.S.
     Department of Agriculture’s (USDA) Supplemental Nutritional Assistance Program (SNAP).
        Each year, the BLS conducts a statistically valid Consumer Expenditure Survey that
         measures how people in the United States spend their money. We used information from
         the survey’s table on average annual expenditures and characteristics to estimate amounts
         for any of the usual monthly living expenses that were not recorded in SSA’s systems.
         We estimate the recipients in our population had an annual income of $7,300 to $8,100,




14
   SSA’s policy also includes medical and dental care, insurance, and illegal drugs (if the file shows the individual
uses them) as part of usual monthly living expenses. SSA, POMS, SI 00810.035.C.2 (July 20, 2009). Since SSI
recipients generally qualify for medical assistance through the Medicaid program, we did not include estimated
amounts for medical and dental care expenses. In addition, we did not include estimated amounts for insurance
because SSA did not specify the type of insurance or for illegal drugs because we did not feel it was appropriate for
all recipients. We identified amounts for all other usual monthly living expense categories.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                              5
         annually. Therefore, we based our estimates on the information for households with an
         annual income between $5,000 and $9,999. 15
        The USDA provides nutrition assistance to low-income individuals and families through
         SNAP. Since the recipients in our population would be considered low income, we
         treated all sampled recipients as if they were receiving SNAP benefits. Therefore, if a
         specific food expense was not recorded in SSA’s systems, we calculated an estimated
         amount the recipient would be expected to contribute based on USDA’s methodology.

We acknowledge that some of the estimated expenses may not reflect what an individual actually
spends each month—some individuals may spend more money in some categories, and some
individuals may spend less. Family size, age of family members, geographic location, and
individual tastes and preferences can influence expenditures. Some individuals may even seek
assistance for some household expenses including help from charitable organizations, housing
agencies, energy assistance programs, and food banks. However, the estimates used came from
data obtained from the USDA and BLS for people with an annual income that was comparable to
the SSI recipients in our review. Therefore, we believe the estimated amounts used were
reasonable for expenses not found in SSA’s systems. See Appendix A for our detailed
methodology.

The following example explains the analysis of July 2011 income and expenses conducted for
one of the recipients in our sample. See Appendix A for detailed information on how we arrived
at the amounts used in our analysis.

    Income: The recipient lived with her three children and reported no source of income other
     than her monthly SSI payment of $674.
    Rent: The recipient reported a monthly rent expense of $500, which we identified in SSA’s
     systems.
    Food: The recipient’s food expense was not recorded in MSSICS. Therefore, based on a
     calculation from the USDA’s SNAP, we estimate the recipient’s food expense was $81.
    Clothing: Using data from BLS, we estimate the recipient spent $78 on clothing.
    Miscellaneous Household Expenses: Using data from BLS, we estimate the recipient spent
     $25 on miscellaneous household expenses.
    Automobile and Transportation Expenses: The recipient’s SSR indicated she owned a
     vehicle. We confirmed that the recipient had a valid driver’s license, and a vehicle was
     registered in her name in 2011. Therefore, using data from BLS, we estimate the recipient
     spent $93 a month for gasoline and motor oil.



15
  The BLS table on average annual expenditures and characteristics has data classified by the following annual
income ranges: (1) Less than $5,000; (2) $5,000 to $9,999; (3) $10,000 to $14,999; (4) $15,000 to $19,999;
(5) $20,000 to $29,999; (6) $30,000 to $39,999; (7) $40,000 to $49,999; (8) $50,000 to $69,999; and
(9) $70,000 and more.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                       6
      Other Expenses: Using data from BLS, we estimate the recipient spent $24 on other
       expenses. 16
      Installment Loans: The recipient’s credit report identified a minimum of $874 paid on
       various credit card accounts in July 2011. When we obtained the credit report, the
       outstanding balance on these credit card accounts totaled nearly $29,000, with the largest
       balance close to $12,000. With the exception of one credit card that was opened in
       February 2011, all had been active for at least 1.5 years. None of these credit cards went into
       delinquent status during that time, which means the minimum monthly payment was made
       every month during that period. 17 SSA’s systems did not identify any installment loan
       information.

Using our methodology, we estimate the recipient’s total usual monthly expenses was almost
$1,700. If these expenses were verified and found to be paid by the recipient, it would result in
potential unstated income of approximately $1,001 (see Table 1). 18 That amount of unstated
income would cause the recipient’s entire SSI payment to be overpaid.
                      Table 1: July 2011 Potential Unstated Income Computation
                                        for Sampled Recipient
                Total Reported Income                                                             $674
                Total Potential Usual Monthly Living Expenses                                  ($1,675)
                       Rent                                                          ($500)
                       Food                                                           ($81)
                       Clothing                                                       ($78)
                       Utilities 19                                                      $0
                       Miscellaneous Household                                        ($25)
                       Automobile and Other Transportation                            ($93)
                       Other                                                          ($24)
                       Installment Loans                                             ($874)
                Potential Unstated Income                                                      ($1,001)

For the recipient in this example, we did not find any documentation showing development of
additional expenses or potential unstated income.


16
  Since SSA’s POMS, SI 00810.035.C.2 shows that the “other” category includes barber and toilet articles, we
based the estimated expense on the “personal care products and services” category in the BLS data.
17
  If SSA strengthens its process as we are recommending in this report, it may want to consider whether using
information from the credit bureaus would be cost-beneficial. However, for our sample of 250 recipients, 50 did not
have a credit report available, and 166 did not have any open accounts reported on their credit report that were being
paid.
18
     We did not verify whether someone other than the recipient was paying for any of the recipient’s expenses.
19
  We did not include an expense for utilities since we could not determine if the cost of utilities was already
included in the rent amount that was recorded in SSA’s MSSICS. See Appendix A for our detailed methodology.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                           7
We conducted the same analysis as presented in the above example on all 250 of our sample
cases and found 50 recipients (20 percent) with almost $7,000 of potential unstated income in
July 2011. We did not verify that the 50 recipients had unstated income. However, if the
recipients were found to have unstated income and could not provide a valid explanation for how
they were meeting the expenses, the unstated income for these recipients would have resulted in
over $5,600 in overpayments.

We acknowledge that it might not be cost-beneficial for SSA to obtain all of the usual monthly
living expenses listed in its policy from all SSI-eligible individuals at the time of application,
during a redetermination, or when a change is reported that could affect the SSI payment
amount. Still, when an individual reports spending the majority of his/her income on
rent/mortgage and food expenses alone, we believe that may be a good indicator of potential
unstated income. Specifically, in the example above, the recipient’s rent and food expenses
accounted for 86.25 percent of her monthly income. Because this recipient had very little
income available for other usual monthly living expenses, we question how she paid for other
expenses that normally occur. In this example, if SSA’s process was strengthened to include
obtaining and documenting additional usual monthly living expenses for SSI-eligible individuals
who spend the majority of their income on rent/mortgage and food alone, the recipient’s
potential unstated income may have been identified.

From our sample of 250 recipients, 40 spent approximately 80 percent or more of their income
on rent/mortgage and food. 20 For these 40 recipients, we considered additional usual monthly
living expenses as identified in SSA policy21 and found 25 recipients whose potential unstated
income would have resulted in at least $20 in overpayments. The potential unstated income
ranged from $40 to $1,001 per person, with a median amount of $93, and totaled over $5,000.
This unstated income would have resulted in overpayments ranging from $21 to $674 per person,
with a median amount of $73, and totaled over $4,000 (see Appendix C).

We did not verify that the 25 recipients had unstated income, as that would have involved
obtaining information normally obtained by SSA during a redetermination. A redetermination is
a review of a recipient's/couple's non-medical eligibility factors (i.e., income, resources, and
living arrangements) to determine whether the recipient/couple is still eligible for and receiving
the correct SSI payment. 22 Redeterminations are the responsibility of SSA and are conducted by
SSA adjudicators trained in the redetermination process. As such, it would not have been
appropriate for OIG auditors to contact these recipients to conduct a redetermination to verify
that unstated income actually existed.




20
  We arrived at 80 percent by using the average rent/mortgage and food as a percent of income for all 250 sampled
recipients (58.14 percent), adding 1 standard deviation (21.84 percent), and rounding up from 79.97.
21
  These expenses were not verified. We found some expense information in SSA’s systems and estimated some.
See Appendix A for more information.
22
     SSA, POMS, SI 02305.001 (October 4, 2007).



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                          8
We realize SSA is mostly likely to develop possible unstated income for SSI-eligible individuals
at the time of application and for recipients in current pay on an ongoing basis—either during a
redetermination or when changes are reported that could affect payment amount or eligibility.
Since the 25 recipients with potential unstated income were receiving SSI payments, we updated
their information and found 21 were in current pay as of January 2014. For those 21 recipients,
we reviewed SSA’s systems to obtain income and expense information for January 2014. Based
on analysis of the January 2014 information, 14 of the 21 recipients had potential unstated
income (see Appendix C). 23

Therefore, based on the income and expense information from July 2011 for the 14 recipients
who also had potential unstated income in January 2014, we project approximately 144,000 blind
or disabled SSI recipients spent approximately 80 percent or more of their income on
rent/mortgage and food and had potential unstated income of over $31 million in 1 month. If all
recipient circumstances remained the same and unstated income was proven to exist, we estimate
these recipients would have over $372 million of unstated income in 1 year. This unstated
income would result in approximately $320 million in potential overpayments, annually, which
includes the actual overpayment assessed for Recipient #1 in the next section (see Appendix B).

Additional Analysis and Referrals to SSA
During our analysis, we identified two recipients we determined needed further examination.
For these individuals, we conducted additional analysis—including a review of LexisNexis 24—
that led us to referring the cases to SSA for further development.

Recipient #1

For this recipient, we reviewed LexisNexis and found she owned two properties and had
two vehicles and a watercraft registered in her name. 25 Ownership of these assets is a “red flag”
that she may have had unstated income. How was the recipient able to pay for these items along




23
  We did not obtain new credit reports for the recipients. Therefore, no credit card expenses were considered in the
updated analysis.
24
  In a prior audit of SSI recipients with unreported real property, we recommended the Agency assess the
costs/benefits of expanded LexisNexis use in determining the accuracy of recipients’ allegations of resources
through a pilot study requiring the use of LexisNexis when initial SSI applications are processed and SSI
redeterminations are completed. The Agency agreed with the recommendation. SSA OIG, SSI Recipients with
Unreported Real Property (A-02-09-29025), June 2011, p. E-2. The Agency conducted a review to test the use of
LexisNexis as a source of undisclosed property and found it is a viable method. The Agency is assessing how to
integrate the use of LexisNexis into operational processes, taking into account diminishing resources. When
conducting the pilot study to determine whether it is cost-beneficial to obtain all living expenses we are
recommending in this report, SSA may also want to consider whether using information from LexisNexis would be
cost-beneficial.
25
  This individual was the recipient used in our example analysis. We did not find documentation of the properties,
extra vehicle, or watercraft in SSA’s systems.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                           9
with other usual monthly living expenses given that her only reported source of income was her
SSI payment? 26

We submitted the recipient’s information to SSA on September 27, 2013. On
November 4, 2013, SSA informed us that the servicing field office contacted the recipient,
determined she was ineligible for SSI, and updated her record to non-payment status. Because of
our referral, the recipient was assessed an $18,882 overpayment.

Recipient #2

We had concerns that this recipient had been married for several years and did not report it to
SSA. As part of our review, we obtained credit reports for all of the sampled individuals. The
recipient's credit report showed a last name that differed from the last name recorded in SSA’s
systems. Therefore, we reviewed LexisNexis for the recipient. LexisNexis showed the same last
name as shown on the credit report, and revealed that the recipient had shared an address with a
man with the same last name since 2005. The recipient’s living arrangements in MSSICS
indicated she lived with her daughter. LexisNexis also showed the recipient had several vehicles
titled jointly with the man with whom she appeared to be living. We also found evidence on a
social media site that lead us to believe the couple was married on November 11, 2004 and the
recipient appeared to have two children in addition to the daughter shown living with her in
MSSICS.

We obtained earnings information via SSA’s systems for the recipient’s possible husband and
found he had earnings ranging from approximately $10,000 to over $40,000 between 2005 and
2011—the same period LexisNexis showed he resided at the same address as the recipient. If the
recipient was married and living with a spouse, his earnings would affect her SSI payment. We
provided SSA with details on this recipient on December 11, 2013 for further development. SSA
referred the case to the appropriate region for action.

CONCLUSIONS
By not specifically identifying what monthly living expenses adjudicators should obtain to
determine the sufficiency of an individual’s income, and the potential for unstated income, SSA
may be overlooking opportunities to detect improper payments. Based on our methodology, we
identified 25 recipients who had potential unstated income in July 2011 that would have resulted
in overpayments of at least $20 per person. The potential unstated income for these recipients
totaled over $5,000. We updated the income and expense information for the 25 recipients and
found 21 were in current pay as of January 2014. Taking into account updated income and


26
  As a program based on need, SSI uses the value of a person’s resources as one of two “need” criteria in
determining eligibility. The other “need” criterion is income. The general expectation is that individuals or couples
whose resources exceed the applicable limit will use the excess to meet their needs before becoming eligible for SSI
benefits. SSA, POMS, SI 01110.001 (October 25, 1990). An individual with countable resources in excess of
$2,000 ($3,000 if living with a spouse) is not eligible for SSI payments. SSA, POMS, SI 01110.003
(December 8, 2010).



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                         10
expense information, we found 14 of the 21 recipients still had potential unstated income.
Projecting to the population, we estimate approximately 144,000 blind or disabled SSI recipients
had potential unstated income of over $372 million in 1 year, which would result in
approximately $320 million in potential overpayments, annually, which includes the actual
overpayment assessed for Recipient #1.

SSA has acknowledged that wage discrepancies have been one of the leading causes of SSI
overpayments for more than a decade. 27 The Agency has various initiatives in place to address
overpayment errors related to wages. These initiatives include redeterminations, Access to
Financial Institutions (AFI), and Supplemental Security Income Telephone Wage Reporting
(SSITWR). 28 While SSA front-line employees detected potential fraud and made appropriate
referrals to the OIG in the New York and Puerto Rico disability fraud schemes, we believe
additional controls could strengthen the process. As such, it is vital that SSA have processes that
ensure benefits are paid only to the right person, in the right amount, and at the right time thereby
avoiding overpayments.

Improvements in SSA’s process for developing unstated income would add to SSA’s initiatives
by potentially identifying issues that cause overpayments and protect the program from those
who would attempt to defraud it.

RECOMMENDATIONS
We recommend SSA

1. Use a process similar to that in our analysis to explore unstated income for the 14 recipients
   who still have potential unstated income.

2. Based on those results, determine whether the process for exploring unstated income should
   be strengthened for SSI-eligible individuals who report spending the majority of their income
   on rent/mortgage and food alone.

AGENCY COMMENTS AND OIG RESPONSE
While SSA technically agreed with our recommendations, it stated it would use its current
longstanding process for SSI stewardship reviews to evaluate the identified cases to determine if
unstated income exists. While OIG appreciates the Agency reviewing the cases, we believe



27
     SSA, Social Security Administration Agency Financial Report Fiscal Year 2013, p. 154.
28
  A redetermination is a review of a recipient’s non-medical eligibility factors (that is, income, resources, and living
arrangements) to determine whether the recipient is still eligible for and receiving the correct SSI payment. AFI is
an electronic system that allows SSA to detect assets, including those in undisclosed bank accounts. SSITWR was
implemented in FY 2008 and allows recipients, representative payees, and deemors to report prior monthly gross
wages via an automated telephone system. SSITWR ensures the wages amounts are timely recorded to the
individual’s record.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                           11
using an approach similar to that used in our analysis would be more likely to detect instances of
unstated income, as more expense information would be obtained to be able to make such a
determination.

In the Agency’s comments, it indicated that its SSI stewardship findings do not support that
unstated income is a major cause of SSI improper payments and that OIG’s estimates are likely
overstated. SSA also commented, “Only when we are unable to determine the source of income
that accounts for the difference between known income and living expenses do we cite an
“unstated income” deficiency.” These statements by the Agency seem to suggest that unstated
income is not a problem within the SSI program. However, we respectfully disagree with that
implication.

While “unstated income” as a category may not technically be a major cause of improper
payments, we believe SSA would discover more improper payments through the development of
unstated income. That is, if SSA asked more SSI-eligible individuals about usual monthly living
expenses, it may reveal that the reported income was insufficient to provide for those expenses
and trigger the exploration of unstated income. If the individual could not explain the difference
between income and expenses, any resulting improper payment would be considered to be due to
“unstated income.” However, if the individual revealed the source to be, for example, wages, the
improper payment would be considered to be due to “earned income.”

The information and analysis surrounding Recipient #1 discussed on page 9 of this report is a
good example of how SSA classifies the type of improper payment. OIG looked into the
recipient because her housing and food costs alone accounted for 86 percent of her income.
Further analysis disclosed the recipient’s usual monthly living expenses far exceeded her
reported income. It was because of the potential for unstated income that the recipient’s excess
resources were discovered, an overpayment was assessed, and the recipient was placed in
non-payment status. In this very situation, the overpayment was considered to be due to “excess
resources” and not because of unstated income. However, it was the development of the
potential unstated income that led to the discovery of the resources. Therefore, we do not believe
our estimates themselves are overstated. Rather, the potential unstated income may end up being
classified as a different type of improper payment. The Agency’s comments are included in
Appendix D.




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                      12
                                       APPENDICES




SSI Recipients with Excess Unstated Income (A-07-12-11206)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

     Reviewed applicable sections of the Social Security Act and the Social Security
      Administration’s (SSA) regulations, policies, and procedures.
     Reviewed prior Office of the Inspector General reports.
     Identified total income and expenses for a sample of 250 Supplemental Security Income
      (SSI) recipients. To do so, we:
         Requested credit reports from Experian Credit Bureau for the 250 sampled individuals
          and any individuals identified on their Supplemental Security Record (SSR). 1
         Reviewed SSA’s Modernized Supplemental Security Income Claims Systems (MSSICS)
          to obtain usual monthly living expense information for the sampled individuals.
         Reviewed a report by the Bureau of Labor Statistics (BLS) regarding average annual
          expenditures for households based on their annual income.
         Reviewed information about the U.S. Department of Agriculture’s (USDA) Supplemental
          Nutritional Assistance Program (SNAP). 2

See the Detailed Methodology section below for more information.

     Calculated potential unstated income for each recipient—the difference between their total
      income and total expenses.
     Calculated potential overpayments based on any potential unstated income identified—taking
      into account SSA’s policies on how income affects SSI payments. 3




1
 Of the 250 sampled recipients, 50 did not have a credit report available. In addition, 12 recipients had another
person identified on their SSR whose income and resources would impact their SSI payment. Therefore, we
attempted to obtain credit reports for those individuals as well. Of the 12 individuals, 2 did not have a credit report
available.
2
    USDA’s SNAP was formerly known as the Food Stamp Program.
3
 We based our overpayment calculations on various SSA policies related to income and SSI eligibility. A
non-exhaustive list of such policies include SSA, POMS, SI 00810.001 (September 26, 2011),
SI 00810.005 (March 8, 2005), SI 00810.030 (March 13, 2003), SI 00810.420 (December 01, 1998), and
SI 00830.010 (November 18, 1996). SSA generally bases payment on the income in the second month before the
month for which payment is being computed. SSA, POMS, SI 02005.001.B (September 22, 2010). Therefore,
potential overpayments were calculated using the September 2011 SSI payment for the recipients.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                          A-1
Detailed Methodology
We identified 128,524 blind or disabled SSI recipients from 1 segment of the SSR who

1. were receiving at least 90 percent of the full 2011 Federal benefit rate—between $607 and
   $674—in July 2011;

2. were age 18 to 65; and

3. did not have an eligible spouse on their record.

From the population of 128,524 blind or disabled SSI recipients, we selected a random sample of
250 to review to determine whether the potential for unstated income existed. Specifically, for
each individual, we identified the following.

   Total income identified in SSA’s systems. This includes the recipient’s SSI payment and any
    other reported income, such as adoption subsidies and the SSI payments of children in the
    household.
   Usual monthly living expenses—rent/mortgage, food, clothing, utilities, housekeeping
    supplies, transportation, personal care, and installment loans 4—as stated in SSA’s
    POMS SI 00810.035.C.2. These expenses were recorded in SSA’s systems, obtained from
    credit reports, or estimated using information from the BLS and/or the USDA’s SNAP.

Actual Income and Expenses Recorded in SSA’s Systems
We obtained income amounts from the SSR and from income screens in SSA’s MSSICS. When
available, we obtained actual expense amounts for food, housing (rent/mortgage, property taxes,
property insurance), and utilities (heating fuel, electricity, gas, garbage removal, water, and
sewer) from screens in MSSICS.

Actual Expenses Not Recorded in SSA’s Systems
The Experian Credit Bureau collects and organizes credit history data from creditors and public
records. Credit reports obtained from Experian included account information for credit cards,
retail credit cards, real estate loans, installment loans (such as automobile loans), and collection
accounts.




4
  SSA’s policy also includes medical and dental care, insurance, and illegal drugs (if the file shows that the
individual uses them) as part of usual monthly living expenses. SSA, POMS, SI 00810.035.C.2 (July 20, 2009).
Since SSI recipients generally qualify for medical assistance through the Medicaid program, we did not include
estimated amounts for medical and dental care expenses. In addition, we did not include estimated amounts for
insurance because SSA did not specify the type of insurance or for illegal drugs because we did not feel it was
appropriate for all recipients. We identified amounts for all other usual monthly living expense categories.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                        A-2
Since SSA considers installment loans as part of usual monthly living expenses, we obtained
credit reports for our sample of 250 recipients and any spouses identified on the recipient’s SSR.
We reviewed the credit reports and identified payments made in July 2011. We considered these
amounts in our calculation of total expenses. We did not include amounts for accounts that were
delinquent in July 2011.

Estimated Expenses Not Recorded in SSA’s Systems
For individuals who did not have expenses recorded in SSA’s systems, we used estimated
amounts for the usual monthly living expenses. These estimates were based on data from the
USDA’s SNAP and the BLS.

USDA Food Estimates

The USDA provides nutrition assistance to low-income individuals and families through SNAP.
However, households receiving SNAP assistance are expected to contribute 30 percent of their
own resources to food. Since the recipients in our population would be considered low income,
we treated all sampled recipients as if they were receiving SNAP benefits. Therefore, if a
specific food expense was not recorded in SSA’s systems, we calculated an estimated amount
that the recipient would be expected to contribute based on the methodology used by USDA.

The USDA uses a calculation with several deductions—including a standard deduction
(see Table A–1) and a deduction for excess shelter—to arrive at a household’s net income
(see Table A–2) used for determining the household’s expected contribution on food.

                             Table A–1: SNAP Standard Deductions
                   People in        48 States and
                                                         Alaska       Hawaii
                   Household             DC
                       1                $149                 $256      $211
                       2                $149                 $256      $211
                       3                $149                 $256      $211
                       4                $160                 $256      $211
                       5                $187                 $256      $215
                      6+                $214                 $268      $247

                            Table A–2: SNAP Net Income Calculation
          Total Income - Standard Deduction = Adjusted Income
          If the Rent/Mortgage is greater than ½ of the Adjusted Income:
                  Rent/Mortgage - ½ of Adjusted Income = Excess Shelter Deduction
          Adjusted Income - Excess Shelter Deduction = Net income

We based our food allocation on the USDA’s calculation of net income. For example, a
household of 2 living in 1 of the 48 States had total income of $674 and reported rent of $300.
To arrive at the household’s net income, we first subtracted the standard deduction of $149 to

SSI Recipients with Excess Unstated Income (A-07-12-11206)                                        A-3
reach the adjusted income of $525. We then took half of the adjusted income ($262.50) and
compared it to the total rent ($300). Since the total rent was greater than half of the adjusted
income, we subtracted the difference of $37.50 as an excess shelter deduction. Therefore, the
household’s net income was $487.50. Finally, we multiplied the net income by 30 percent to
identify the food expense. In this example, the food expense was $146.25.

BLS Living Expense Estimates

The BLS conducts the Consumer Expenditure Survey to collect information from the nation’s
households and families on their buying habits (expenditures), income, and household
characteristics. The published results identify the average household composition and
expenditures by income range.

SSA does not always record usual monthly living expenses—rent or mortgage, including
property tax; clothing; utilities; miscellaneous household expenses; automobile and other
transportation; and other expenses. Therefore, when actual expenses were not recorded, we
identified the average cost by using the BLS report on average annual household expenditures.
Since the sampled recipients received SSI payments between $607 and $674 in July 2011, we
estimate the recipients’ SSI income would be approximately $7,300 to $8,100, annually.
Therefore, we used the data from the BLS report for income ranging from $5,000 to $9,999 (see
Table A–3). 5

                                Table A–3: Average Expenditures for
                                  Income of $5,000 to $9,999, 2011
                       Usual Monthly Living Expense                                    BLS Monthly
                        (BLS Expenditure Category)                                      Expense 6
    Rent or Mortgage (Rented dwellings): For those recipients who did
    not have a rent or mortgage cost recorded in SSA’s systems, we divided
                                                                                               $268.33
    the BLS annual cost for rented dwellings of $3,220 by 12 months to
    arrive at an estimated monthly rent expense of $268.33.




5
 Consumer Expenditure Survey, U.S. Bureau of Labor Statistics, September, 2012: Table 2. Income before taxes:
Average annual expenditures and characteristics, Consumer Expenditure Survey, 2011.
6
 Some monthly expenses—clothing, housekeeping supplies, and personal care products and services—would likely
vary depending on the number of people in the household. Therefore, these categories have two different
calculations. We took this approach to ensure that households of one were not charged an unreasonable amount and
households with multiple people did not get charged more than the maximum annual cost as shown in the BLS data.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                   A-4
                      Usual Monthly Living Expense                             BLS Monthly
                       (BLS Expenditure Category)                               Expense 6
   Clothing (Apparel and services): Clothing costs likely vary depending
   on the number of people in the household. Therefore, we used two
   different amounts. For households with more than one person, we
   divided the BLS annual cost for apparel and services, $938, by
   12 months to arrive at the monthly expense of $78.17. For households        $45.98/$78.17
   of only one person, we calculated the amount for a single household
   member. This was done by dividing the calculated monthly amount of
   $78.17 by the BLS reported average number of people per household of
   1.7. This resulted in a monthly expense of $45.98.
   Utilities (Natural gas, electricity, water and other public services):
   For those recipients where SSA’s systems indicated they owned a home
   but did not have utility expenses recorded, we divided the BLS annual
   cost for utilities, $1,368 (natural gas $201; electricity $900; and water
   and other public services $267) by 12 months to arrive at an estimated           $114.00
   monthly utility expense of $114. For those recipients where SSA’s
   systems indicated they rented, we did not include utility expenses since
   we could not determine whether the cost of utilities was included in the
   rental amount.
   Miscellaneous Household Expenses (Housekeeping supplies): SSA
   does not specifically define what it considers miscellaneous household
   expenses in POMS SI 00810.035.C.2. Therefore, we used the BLS
   annual cost for housekeeping supplies of $295 to arrive at an estimated
   amount. This includes laundry and cleaning supplies, other household
   products, postage, and stationery. Housekeeping supply costs likely
   vary depending on the number of people in the household. Therefore,
                                                                               $14.46/$24.58
   we used two different amounts. For households with more than one
   person, we divided the BLS annual cost for housekeeping supplies by
   12 months to arrive at the monthly expense of $24.58. For households
   of only one person, we calculated the amount for a single household
   member. This was done by dividing the calculated monthly amount of
   $24.58 by the BLS reported average number of people per household of
   1.7. This resulted in a monthly expense of $14.46.
   Automobile and Other Transportation Expenses:
      (Gasoline and motor oil)                                                       $92.67
      (Public and other transportation)                                              $13.08
   If SSA’s systems showed a recipient owned a vehicle, we divided the
   BLS annual cost for gasoline and motor oil of $1,112 by 12 months to
   arrive at an estimated expense of $92.67. If there was no evidence in
   SSA’s systems that a recipient owned a vehicle, we divided the BLS
   annual cost for public and other transportation of $157 by 12 months to
   arrive at an estimated expense of $13.08.




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                     A-5
                      Usual Monthly Living Expense                          BLS Monthly
                       (BLS Expenditure Category)                            Expense 6
   Other Expenses (Personal care products and services): SSA’s
   definition of other expenses includes such items as newspapers,
   haircuts, and toilet articles. Therefore, we used the BLS category of
   personal care products and services of $287 to estimate the other
   expenses. Personal care item costs likely vary depending on the number
   of people in the household. Therefore, we used two different amounts.    $14.07/$23.92
   For households with more than one person, we divided the BLS annual
   cost by 12 months to arrive at the monthly expense of $23.92. For
   households of only one person, we divided the calculated monthly
   amount of $23.92 by the BLS reported average number of people per
   household of 1.7. This resulted in a monthly expense of $14.07.

We conducted our audit between March and September 2013 in Kansas City, Missouri. The
principal entity audited was the Office of Income Security Programs under the Office of
Retirement and Disability Policy. We conducted our audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and conduct the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our review and
determined them to be sufficiently reliable to meet our objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                  A-6
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained a data extract—from one segment of the Social Security Administration’s (SSA)
Supplemental Security Record (SSR)—that contained all recipients who received a Supplemental
Security Income (SSI) payment in July 2011. From the extract, we identified a population of
128,524 blind or disabled SSI recipients who were

1. receiving at least 90 percent of the full 2011 Federal benefit rate in July 2011;

2. age 18 to 65; and

3. receiving benefits as individuals.

From the population of 128,524 blind or disabled SSI recipients, we selected a random sample of
250 to review to determine whether the potential for unstated income existed.

                              Table B–1: Population and Sample Size
               Population Size (identified in 1 segment of the SSR)              128,524
               Sample Size                                                           250
               Total Population (Population Size x 20 segments)                2,570,480

Of the 250 blind or disabled SSI recipients in our sample, we determined 25 may have spent
approximately 80 percent or more of their income on rent/mortgage and food and had potential
unstated income in July 2011 that would have resulted in overpayments of at least $20 per
person. We updated the income and expense information for the 25 recipients and found
21 were in current pay as of January 2014. Taking into account updated income and expense
information, we found 14 of the 21 recipients still had potential unstated income. Based on the
income and expense information from July 2011 for these 14 recipients, the potential unstated
income for these 14 recipients totaled over $3,000. Therefore, we project that 143,940 blind or
disabled SSI recipients in our entire population had potential unstated income of $31,010,080 in
one month (see Table B–2).

        Table B–2: Blind or Disabled SSI Recipients with Potential Unstated Income
                                                              Number of    Amount of Unstated
                       Description
                                                              Recipients       Income
       Sample Results (for 1 segment)                                14         $3,015.98
       Point Estimate (for 1 segment)                             7,197        $1,550,504
       Projection – Lower Limit                                   4,394          $555,663
       Projection – Upper Limit                                  11,070        $2,545,346
       Population Estimate
                                                                 143,940       $31,010,080
       (Point Estimate x 20 segments)
       Note:   All projections are at the 90-percent confidence level.




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                      B-1
The unstated income of these recipients would cause overpayments of approximately $2,591 in
1 month. Therefore, based on the results of our review, we project that 143,940 blind or disabled
SSI recipients in our population had potential overpayments of $26,638,900 (see Table B–3).

                  Table B–3: Blind or Disabled SSI Recipients with Potential
                           Overpayments Due to Unstated Income
                                                             Number of              Amount of
                      Description
                                                             Recipients            Overpayment
       Sample Results (for 1 segment)                                  14                 $2,590.85
       Point Estimate (for 1 segment)                               7,197                $1,331,945
       Projection – Lower Limit                                     4,394                  $458,572
       Projection – Upper Limit                                    11,070                $2,205,318
       Population Estimate
                                                                  143,940               $26,638,900
       (Point Estimate x 20 segments)
       Note:   All projections are at the 90-percent confidence level.

If all recipient circumstances remained the same and unstated income continued to go
undetected, we estimate the 143,940 blind or disabled SSI recipients would have
$372,120,960 in potential unstated income annually, which would result in $319,666,800 in
potential overpayments. In addition, due to our referral to SSA, Recipient #1 had an
overpayment of $18,882 assessed. Of that amount, $8,978 occurred between
September 2011 and September 2012, making the total potential overpayments $319,675,778 in
1 year (see Table B–4).

                        Table B–4: Blind or Disabled SSI Recipients with
                         Potential Unstated Income –Annual Estimates
                            Description                                            Amount
     Annual Potential Unstated Income for the Population
                                                                                           $372,120,960
     ($31,010,080 x 12 months)
     Annual Potential Overpayments                                                         $319,675,778
           Annual Potential Overpayments for the Population
                                                                         $319,666,800
           ($26,638,900 x 12 months)
           Actual Overpayment Assessed for Recipient #1
                                                                              $8,978
           for September 2011 – September 2012




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                B-2
Appendix C – SAMPLE ERRORS
The following table shows the 25 blind or disabled SSI recipients who spent approximately
80 percent or more of their income on rent/mortgage and food and had potential unstated income
that would have resulted in at least $20 in overpayments. We updated the information for the
25 recipients and found 21 were in current pay as of January 2014. For those 21 recipients, we
reviewed SSA’s systems to obtain income and expense information for January 2014. Based on
analysis of the January 2014 information, 14 of the 21 recipients still had potential unstated
income. Those 14 are highlighted in blue below, and are the cases from our sample we are
recommending SSA look into for potential unstated income.

                               Table C–1: 25 Sample Errors – July 2011
          Total     Housing &           Other           Potential             Potential         Housing & Food
    #
         Income    Food Expenses       Expenses      Unstated Income         Overpayment        as % of Income
    11     $674        ($581)          ($1,094)          ($1,001)                 $674                86
    2      $674        ($634)           ($843)            ($803)                  $674                94
    32     $674        ($656)           ($748)            ($730)                  $674                97
    4      $726        ($766)           ($219)            ($259)                  $239               105
    5     $1,262      ($1,222)          ($279)            ($239)                  $219                97
    6      $830        ($674)           ($369)            ($213)                  $193                81
    7      $830        ($772)           ($254)            ($196)                  $176                93
    8      $674        ($642)           ($217)            ($185)                  $165                95
    9      $674        ($637)           ($202)            ($165)                  $145                95
    10     $674        ($659)           ($140)            ($125)                  $105                98
    11     $674        ($656)           ($140)            ($122)                  $102                97
    12     $674        ($680)            ($88)             ($94)                  $74                101
    13     $674        ($694)            ($73)             ($93)                  $74                103
    14     $674        ($593)           ($169)             ($88)                  $68                 88
    15     $830        ($709)           ($206)             ($85)                  $65                 85
    16     $674        ($586)           ($167)             ($79)                  $59                 87
    17     $674        ($656)            ($88)             ($70)                  $50                 97
    18     $674        ($656)            ($88)             ($70)                  $50                 97
    19     $674        ($656)            ($88)             ($70)                  $50                 97
    20     $788        ($690)           ($167)             ($69)                  $49                 88


1
 This recipient’s information was sent to SSA for review. Because of our referral, the recipient stopped receiving
payments and was assessed an $18,882 overpayment. See Recipient #1 on page 9 for more information.
2
 This recipient’s information was sent to SSA for review. SSA referred the case to the appropriate region for
action, but OIG had not received an update on the status as of the time of this report. See Recipient #2 on
page 10 for more information.



SSI Recipients with Excess Unstated Income (A-07-12-11206)                                                      C-1
       Total     Housing &          Other          Potential       Potential    Housing & Food
 #
      Income    Food Expenses      Expenses     Unstated Income   Overpayment   as % of Income
21     $674        ($646)            ($87)           ($59)            $39             96
22     $674        ($645)            ($88)           ($59)            $39             96
23     $674        ($592)           ($140)           ($58)            $38             88
24     $674        ($551)           ($167)           ($44)            $24             82
25     $674        ($572)           ($143)           ($41)            $21             85
                                                     ($5,017)       $4,066




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                  C-2
           Appendix D – AGENCY COMMENTS




                                          SOCIAL SECURITY

 MEMORANDUM

Date:      April 11, 2014                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Supplemental Security Income Recipients with
           Excess Unstated Income” (A-07-12-11206) -- INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to

           Gary S. Hatcher at (410) 965-0680.



           Attachment




           SSI Recipients with Excess Unstated Income (A-07-12-11206)                                    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH EXCESS UNSTATED
INCOME” (A-07-12-11206)


General Comment

Preventing improper payments is critical to maintaining the public’s trust in our programs. Over
the past year, we have expanded our use of our Access to Financial Institutions (AFI) program to
identify and prevent improper payments due to undisclosed bank accounts. We have also
initiated the non-home real property study, which uses LexisNexis real property data to assess
eligibility for Supplemental Security Income (SSI) during initial claim and redetermination
interviews. Both of these initiatives address issues that our stewardship reports identified as
leading sources of improper payments.

Our quality review findings, specifically our SSI stewardship findings, do not support that
unstated income is a major cause of SSI improper payments. In our reviews, we attempt to
determine the source of the unstated income and attribute any resulting deficiency to that source,
e.g., cash support or in-kind support and maintenance (ISM). Only when we are unable to
determine the source of income that accounts for the difference between known income and
living expenses do we cite an “unstated income” deficiency.

In fiscal year (FY) 2013, we reviewed 4,089 SSI stewardship cases. We identified 56 cases
(1.4 percent) in which we had to address the issue of unstated income, i.e., known income was
insufficient to provide for known living expenses. We found the beneficiary received previously
unacknowledged income in 15 of these 56 cases. These 15 cases project to 22,915 recipients
(0.3 percent of the total) who were issued SSI payments in FY 2013. The payment errors in
these cases project to $35.7 million in improper payments. In only one of the 15 cases did we
cite an “unstated income” deficiency, i.e., one case in which we could not account for the
unexplained difference between known income and expenses. This single case projects to
917 cases and represents approximately $2 million in improper payments.

The estimates of potential unstated income and potential overpayments presented by the Office
of the Inspector General (OIG) are likely to be overestimates of the results of actual development
for a number of reasons. A common occurrence in these cases is some form of ISM, which we
cap at the presumed maximum value (currently $260.33/month). Often, a relative is helping the
recipient with his or her living expenses by paying the vendor directly. Even then, only if the
vendor payment is for a food or shelter item do we count it as ISM. We do not count third-party
vendor payments for any other expense, e.g., clothing, transportation, and medication, as
income.

We also exclude from income any ISM item, including food and shelter, provided by a
government medical or social services program. In addition, we exclude any ISM item other
than food or shelter provided by a non-governmental medical or social service. These are
examples of how the extensive development of unstated income can be, and often is,
unproductive in terms of identifying countable income.

SSI Recipients with Excess Unstated Income (A-07-12-11206)                                     D-2
Recommendation 1

Use a process similar to that in our analysis to explore unstated income for the 14 recipients who
still have potential unstated income.

Response

We will explore unstated income for the 14 recipients OIG identified. However, rather than use
the process in the audit, we will use our current longstanding process for SSI stewardship
reviews to evaluate the identified cases and determine if unstated income exists. We plan to
complete this review within 60 days.

Recommendation 2

Based on those results, determine if the process for exploring unstated income should be
strengthened for SSI-eligible individuals who report spending the majority of their income on
rent/mortgage and food alone.

Response

We agree. Based on the results of the case review, we will determine if we should update our
policy.




SSI Recipients with Excess Unstated Income (A-07-12-11206)                                      D-3
Appendix E – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Shannon Agee, Audit Manager

Kenneth Bennett, Audit Data Specialist

Katherine Muller, Senior Auditor

Brennan Kraje, Statistician

Charles Zaepfel, IT Specialist




SSI Recipients with Excess Unstated Income (A-07-12-11206)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
